No. 20-1553
IN THE

Supreme Court of the United States

d
REIYN KEOHANE ,

Petitioner,

—v.—

FLORIDA DEPARTMENT

OF

CORRECTIONS SECRETARY,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

BRIEF IN OPPOSITION

LANCE ERIC NEFF
Counsel of Record
FLORIDA DEPARTMENT
OF CORRECTIONS
501 South Calhoun Street
Tallahassee, Florida 32399-2500
(850) 717-3588
lance.neff@fdc.floridalegal.com
KIRKLAND E. REID
THE FINLEY FIRM , P.C.
200 13th Street
Columbus, Georgia 31901
(706) 322-6226
Attorneys for Respondent

i
QUESTION PRESENTED
Whether the Court should deny petitioner’s
attempt to have the court of appeals’ decision vacated
under Munsingwear even though the case is not
moot, even though petitioner is not presently
receiving all of the relief she sought throughout this
case, and even though petitioner already has received
all the appellate review to which she is entitled.

ii
TABLE OF CONTENTS

PAGE

QUESTION PRESENTED . . . . . . . . . . . . . . . . . . .

i

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

iii

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

REASONS TO DENY THE PETITION . . . . . . .

2

I. Keohane’s Effort to Vacate the Eleventh
Circuit’s Opinion is Meritless . . . . . . . . . .

2

II. The Eleventh Circuit Decided More Than
Social Transition Requests. . . . . . . . . . . . .

6

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

7

iii
TABLE OF AUTHORITIES

PAGE(S)

Cases
Azar v. Garza,
138 S. Ct. 1790 (2018) . . . . . . . . . . . . . . . . . . . .

4

Chafin v. Chafin,
568 U.S. 165 (2013) . . . . . . . . . . . . . . . . . . . . . .

4, 5

Jones v. N. Carolina Prisoners’ Lab. Union, Inc.,
433 U.S. 119 (1977) . . . . . . . . . . . . . . . . . . . . . .

3

Keohane v. Jones,
328 F. Supp. 3d 1288 (N.D. Fla. 2018) . . . . .

1, 4

U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship,
513 U.S. 18 (1994). . . . . . . . . . . . . . . . . . . . . . . .

5, 6

United States v. Munsingwear, Inc.,
340 U.S. 36 (1950). . . . . . . . . . . . . . . . . . . . . . . .

2, 7

Statutes
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . .

7

Constitutional Provisions
Eighth Amendment . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 6
Rules
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

6, 7

Other Authorities
Stephen M. Shapiro et al., Supreme Court
Practice § 19.4 (10th ed. 2013) . . . . . . . . . . . . . .

5

1
INTRODUCTION
Faced with a decision not to her liking, Petitioner
Reiyn Keohane (“Keohane”) asks this Court to vacate
that decision as purportedly moot. But the case is not
moot, and Keohane did not petition the Court on the
merits of the Eleventh Circuit’s decision. For the
reasons briefly stated below, the Court should
summarily reject Keohane’s gambit and deny the
petition.
Keohane, a transgender inmate who is biologically
male, insisted throughout the history of this
extensively litigated case that the Florida
Department of Corrections (“FDC”) was deliberately
indifferent to her medical needs by not allowing her
to wear make-up and do all the things female
inmates are allowed to do in female prisons. 1 Female
prisoners are allowed to wear make-up outside their
housing unit. Keohane is not. Pet. App. 154a.
Keohane could have challenged this limitation in this
Court as violative of the Eighth Amendment, as she
challenged any FDC limitation on her social
transitioning requests throughout the history of this
case. See, e.g., Keohane v. Jones, 328 F. Supp. 3d
1288, 1295 (N.D. Fla. 2018). She chose not to, arguing
instead that the case is somehow moot. But when
FDC continues to limit her social transitioning
requests, there can be no credible claim that the case
is moot.
Moreover, Keohane insisted at trial and on appeal
that her social transitioning requests were
constitutionally mandated. FDC has never accepted
this contention and does not do so today. The
1

This response will adhere to the case’s history of referring to
Keohane as “her” and “she.”

2
Eleventh Circuit agreed with FDC and reversed the
district court’s determination to the contrary. Pet.
App. 38a. Thus, there has always been a “case or
controversy” sufficient for Keohane to petition this
Court on the merits. For whatever reason, Keohane
chose to pursue vacatur only.
Finally, Keohane sought en banc review from the
Eleventh Circuit. Pet. App. 87a. This effort was
denied, just as her subsequent effort to have the
Eleventh Circuit recall its mandate was denied. Pet.
App. 129a. Keohane therefore has received all the
appellate review to which she is entitled. Nothing in
her petition to this Court justifies vacatur. The
petition should be denied. 2
REASONS TO DENY THE PETITION
I. Keohane’s Effort to Vacate the Eleventh
Circuit’s Opinion is Meritless
Keohane’s insistence this Court must vacate the
Eleventh Circuit’s opinion pursuant to United States
v. Munsingwear, Inc., 340 U.S. 36 (1950), is wrong.
This is so because the case is not moot and Keohane
has received all the appellate review to which she is
entitled.

2

FDC relies on the Eleventh Circuit’s opinion as accurately
setting out the facts. Pet. App. 1a-9a. FDC notes, however, that
Keohane improperly argues and takes issue with the Eleventh
Circuit’s opinion by calling it “demonstrably incorrect” on the
core issue of medical necessity. Pet. at 6 n.2. Assuming, for the
sake of argument only, that Keohane’s characterization of the
Eleventh Circuit’s opinion was correct, such a characterization
would only underscore why the case is not moot and why
Keohane should have petitioned this Court on the merits.

3
As stated in FDC’s opposition to Keohane’s attempt
to have the Eleventh Circuit recall its mandate,
allowing her access to female canteen items, i.e.,
make-up (to be worn in her housing unit only) and
female grooming standards, is a reflection of FDC’s
own medical judgment and security considerations.
Pet. App. 160a-161a. See Jones v. N. Carolina
Prisoners’ Lab. Union, Inc., 433 U.S. 119, 137 (1977)
(Burger, C.J., concurring) (noting the healthy sense of
realism on the part of the Court to understand that
needed reforms in the area of prison administration
must come, not from the federal courts, but from
those with the most expertise in this field, prison
administrators themselves). FDC has never taken
the position that such social transition requests are
constitutionally mandated. Indeed, the district
court’s determination that such requests were
constitutionally mandated formed the basis of FDC’s
appeal. The Eleventh Circuit agreed with FDC and
reversed the district court’s determination. Pet. App.
38a.
If Keohane wished to pursue her argument that
such social transition requests were constitutionally
mandated, such that the failure to accommodate
those requests amounted to deliberate indifference in
violation of the Eighth Amendment’s prohibition on
cruel and unusual punishment, she remained free to
do so. Keohane, however, abandoned any effort to
seek review from this Court on this central issue,
opting instead to claim solely that the Eleventh
Circuit’s opinion should be vacated because it is
purportedly moot. But because FDC has never said
such requests are mandated by the Eighth
Amendment, there is nothing moot about this case.
Crucially, FDC notes that even the present policy,
Proc. No. 403.012, which Keohane says moots this

4
case and requires the extraordinary remedy of
vacatur, does not provide Keohane the right to wear
female make-up outside her housing unit. Keohane
insisted at trial and on appeal that she should be
allowed to wear make-up freely, with no such
restriction imposed. Compare Keohane v. Jones,
328 F. Supp. 3d 1288, 1318 (N.D. Fla. 2018)
(“Accordingly, Defendant is enjoined to permit Ms.
Keohane access to the same undergarments, hairlength policy, and make-up items available for
inmates housed in Defendant’s female facilities so
that she can socially transition to treat her gender
dysphoria.”), with Pet. App. 154a (“Make-up will be
removed prior to departing the housing unit”). That
she is still being denied this request plainly evidences
there is an existing “case or controversy” and there is
nothing moot about this case. Chafin v. Chafin, 568
U.S. 165, 172 (2013) (“As long as the parties have a
concrete interest, however small, in the outcome of
the litigation, the case is not moot.”) (quoting Knox v.
Service Employees, 567 U.S. 298, 307-08 (2012)). This
fact alone should compel this Court to deny
Keohane’s petition without further analysis.
Again, Keohane chose not to petition this Court on
the constitutional merits; rather, she limited her
petition to vacatur only. Given this omission (leaving
aside the obviously live controversy concerning the
location she may wear make-up), there is nothing
equitable about vacating and wiping away such an
extensively litigated case. See, e.g., Azar v. Garza,
138 S. Ct. 1790, 1792 (2018) (noting that vacatur is
“rooted in equity [and] turns on the conditions and
circumstances of the particular case”) (citation and
internal quotation omitted).
Further underscoring the meritless nature of this
petition is Keohane’s own insistence that “there is a

5
real possibility that in the future she will be denied
adequate care under the FDC’s new policy.” Pet. at
11. The Eleventh Circuit held that “adequate care”
did not require all of Keohane’s social transition
requests. Pet. App. 38a. But, if Keohane believes
that she will somehow be prejudiced if social
transitioning requests are not constitutionally
mandated, and could be denied in the future based on
FDC’s exercise of its medical judgment, then she
should have made that argument on the merits to
this Court and not requested vacatur. See Chafin, 568
U.S. at 172 (“But a case becomes moot only when it is
impossible for a court to grant any effectual relief
whatever to the prevailing party.”) (internal
quotations and citation omitted).
Given that Keohane is not presently being provided
everything she asked for, i.e., she cannot wear makeup outside her housing unit, and given that she
abandoned any opportunity to petition this Court
to constitutionally mandate her social transition
requests, there is no equitable, or any, basis for
vacating the Eleventh Circuit’s opinion. See U.S.
Bancorp Mortg. Co. v. Bonner Mall P’ship, 513 U.S.
18, 26 (1994) (noting petitioner’s burden in
establishing “equitable entitlement to the extraordinary
remedy of vacatur”).
To be clear, FDC submits that the obvious reason
Keohane chose the vacatur path as a collateral attack
on the Eleventh Circuit’s judgment is because on the
merits her petition is in no way worthy of certiorari.
See Stephen M. Shapiro et al., Supreme Court
Practice § 19.4, at 968 n.33 (10th ed. 2013) (the
“Court’s behavior across a broad spectrum of cases
since 1978 suggests that the Court denied certiorari
in arguably moot cases unless the petition presents
an issue (other than mootness) worthy of review”).

6
Here, the case is not entirely moot and Keohane
presented no other issue, much less a certworthy
issue, to support issuance of the writ. The Eleventh
Circuit’s opinion is thorough and well-reasoned. It
has none of the indicia that might lead this Court to
grant a petition for writ of certiorari. Sup. Ct. R. 10.
That Keohane is displeased with the Eleventh
Circuit’s opinion is no reason to vacate it. Indeed, if
certiorari would have been denied for failure to
satisfy the criteria of Rule 10, then vacatur would
give Keohane a result in no way warranted.
Accordingly, the petition should be denied.
II. The Eleventh Circuit Decided More than
Social Transition Requests
Keohane asserts that FDC’s interest is only in
“preserving its doctrinal victory” in the court of
appeals, Pet. at 10, and that this is irrelevant to her
petition to vacate the opinion. But it was Keohane
herself that sought en banc review on both the
voluntary cessation doctrine and the standard of
review in Eighth Amendment deliberate indifference
cases. The Eleventh Circuit spent much effort, and
many pages, discussing these issues in its order
denying Keohane’s request for en banc review. Pet.
App. 87a. Keohane should not be allowed to so blithely
ignore what she herself requested. That the result of
the en banc request was not to her liking is, again, not
a reason to vacate the opinion. The Eleventh Circuit’s
determinations on standard of review and voluntary
cessation are important and resulted from Keohane’s
own request that the Eleventh Circuit decide them en
banc. In such a scenario, there is no reason to vacate
those determinations. See U.S. Bancorp, 513 U.S. at 26
(“Judicial precedents are presumptively correct and
valuable to the legal community as a whole. They are

7
not merely the property of private litigants and should
stand unless a court concludes that the public interest
would be served by a vacatur.”) (internal citation
omitted).
Moreover, what Keohane’s request for en banc
review shows is that Keohane has received all the
appellate review to which she is entitled. Appeals
from the circuit courts of appeal are by certiorari;
there is no appeal as of right to this Court. 28 U.S.C.
§ 1254(1). Munsingwear concerns “unreviewable”
judgments; however, Keohane has had every
opportunity to seek appellate review, including a
request for en banc reconsideration and a motion to
recall the mandate. Her efforts did not turn out to
her liking, but that is no reason to invoke the
equitable doctrine of vacatur as a last-ditch attempt
to avoid determinations that she in part requested,
particularly when her case does not warrant further
consideration on the merits. Sup. Ct. R. 10. In short,
there simply is no prejudice to Keohane to support
the invocation of vacatur.
CONCLUSION
For at least the abovementioned reasons, FDC
respectfully requests this Court deny Keohane’s
petition.
Respectfully submitted,
LANCE ERIC NEFF
Counsel of Record
FLORIDA DEPARTMENT OF CORRECTIONS
501 South Calhoun Street
Tallahassee, Florida 32399-2500
(850) 717-3588
lance.neff@fdc.floridalegal.com

8
KIRKLAND E. REID
THE FINLEY FIRM, P.C.
200 13th Street
Columbus, Georgia 31901
(706) 322-6226
Attorneys for Respondent

